No. 20-565

IN THE
SUPREME COURT OF THE UNITED STATES

George Matthews and Nina Matthews
Petitioners,
vs.
David Merbaum and Andrew Becker
Respondents.

On Petition for a Writ of Certiorari to
The United States Court of Appeals
For the Eleventh Circuit
SUPPLEMENTAL APPENDIX

George Matthews
Nina Matthews
6038 Katie Emma Drive
Powder Springs, Georgia 30127
Tel.: 404-213-8324
E-Mail: matthews.6038@yahoo.com
Pro-Se Petitioners

TABLE OF CONTENTS

Appendix A
Case Docket - United States Court of Appeals for the Eleventh
Circuit # 19-15001
George Matthews, et al v. Andrew J. Becker

1

Appendix B
Briefing Notice to Appellees
United States Court of Appeals for the Eleventh Circuit # 19-15001
George Matthews, et al v. Andrew J. Becker
Filed Date: February 11, 2020

7

Appendix C
Motion to Disqualify Attorney's Filing Certificate of Interested Persons
Form Due to Failure to File an Appearance of Counsel Form
United States Court of Appeals for the Eleventh Circuit
# 19-15001
George Matthews, et al v. Andrew J. Becker
Filed Date: March 2, 2020

9

Appendix D
Response to Motion filed by Appellants George Matthews et al with Incorporated
Motion for Sanctions
United States Court of Appeals for the Eleventh Circuit
# 19-15001
George Matthews, et al v. Andrew J. Becker
Filed Date: March 6, 2020
24
Appendix E
Order of the United States Court of Appeals for the Eleventh
Circuit # 19-15001
George Matthews, et al v. Andrew J. Becker
Filed Date: March 30, 2020

32

Appendix F
Motion for Contempt Against Attorneys David Merbaum and
Andrew Becker with Brief in Support
Northern District Court of Georgia Atlanta Division
No. 1:10-CV-1641
Filed Date: July 2, 2019

33

Appendix G
Chapter 13 Standing Trustee's Final Report and Account
United States Bankruptcy Court Northern District of
Georgia - Atlanta Division
No. A11-63910-BEM
Filed Date: February 21. 2017

44

Appendix H
Motion to Allow Late Proof of Claim and Proof of Claim
United States Bankruptcy Court Northern District of
Georgia - Atlanta Division
No. A11-63910-BEM
Filed Date: April 19, 2015

46

Appendix A
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-15001
GEORGE MATTHEWS, NINA MATTTHEWS Plaintiffs
U.
ANDREW BECKER AND DAVID MERBAUM Appellees

COURT DOCKET FOR CASE NO. 19-15001

19-15001 Docket

1/24/2021

General Docket
United States Court of Appeals for the Eleventh Circuit
Docketed: 12/12/2019
Termed: 06/02/2020

Court of Appeals Docket #: 19-15001
Nature of Suit: 4110 Insurance
George Matthews, et al v. Andrew J. Becker
Appeal From: Northern District of Georgia
Fee Status: Fee Paid
Case Type Information:
Private Civil
Diversity
Originating Court Information:
District: 113E-1 : 1:10-cv-01641-SCJ
Court Reporter: Lori Burgess
Civil Proceeding: Steve C. Jones, U.S. District Judge
Date Filed: 05/27/2010
Date NOA Filed:
12/11/2019
Prior Cases:
12-11125 Date Filed: 03/01/2012

Date Disposed: 12/06/2012

Disposition: Affirmed

Current Cases:
None

GEORGE MATTHEWS
Plaintiff - Appellant

NINA MATTHEWS
Plaintiff - Appellant

George Matthews
Direct: 404-213-8324
[NTC Pro Se]
6038 KATIE EMMA DR
POWDER SPRINGS, GA 30127
Nina Matthews
Direct: 404-213-8324
[NTC Pro Se]
6038 KATIE EMMA DR
POWDER SPRINGS, GA 30127

versus
STATE FARM FIRE & CASUALTY COMPANY
Terminated: 02/11/2020
Defendant - Appellee
ANDREW J. BECKER
https://ecf.ca11. usco u rts.gov/n/beam/se rvl et/1-ra n sportRoo m

Andrew J. Becker

Appench.,,

1/6

19-15001 Docket

1/24/2021

Interested Party - Appellee Direct: 678-393-8232
[NTC Pro Se]
Merbaum & Becker, P.C.
Firm: 678-393-8232
5755 NORTH PT PKWY STE 284
ALPHARETTA, GA 30022
DAVID JASON MERBAUM

SERVICE

David Jason Merbaum
Interested Party - Appellee Direct: 678-393-8232
[NTC Pro Se]
Merbaum & Becker, P.C.
Firm: 678-393-8232
5755 NORTH PT PKWY STE 284
ALPHARETTA, GA 30022

Mark Thomas Dietrichs
Direct: 404-888-6127
[NTC Retained]
Swift Currie McGhee & Hiers, LLP
Firm: 404-874-8800
1355 PEACHTREE ST NE STE 300
ATLANTA, GA 30309
Kathleen Ann Marsh
Direct: 404-252-1425
[NTC Retained]
Quirk & Quirk, LLC
Firm: 404-252-1425
6000 LAKE FORREST DR NW STE 300
ATLANTA, GA 30328

https://ecf.ca11.uscourts.gov/n/beam/servlet/TransportRoom

2/6

19-15001 Docket

1/24/2021

GEORGE MATTHEWS,
NINA MATTHEWS,
Plaintiffs - Appellants,
versus
STATE FARM FIRE & CASUALTY COMPANY,
Defendant,
ANDREW J. BECKER
DAVID JASON MERBAUM,
Interested Party - Apellees.

https://ecf.ca11.uscourts.gov/n/beam/servlet/TransportRoom

3/6-

1/24/2021

19-15001 Docket

12/12/2019

®

CIVIL APPEAL DOCKETED. Notice of appeal filed by Appellants George Matthews and Nina Matthews on
12/11/2019. Fee Status: Fee Paid. Awaiting Appellant's Certificate of Interested Persons due on or before
01/09/2020 as to Appellant George Matthews. Awaiting Appellee's Certificate of Interested Persons due on
or before 02/06/2020 as to Appellee State Farm Fire & Casualty Company. The appellant's brief is due on
or before 01/21/2020. The appendix is due no later than 7 days from the filing of the appellant's brief
[Entered: 12/22/2019 05:14 PM]

El

Certificate of Interested Persons and Corporate Disclosure Statement filed by Appellants George Matthews
and Nina Matthews. [Entered: 01/08/2020 09:51 AM]

14 pg, 1.82 MB

01/08/2020

3 pg, 406.85 KB

01/21/2020
36 pg, 1.49 MB

01/28/2020

El

Appendix filed [1 VOLUMES - 2 copies] by George Matthews and Nina Matthews. Service date: 01/28/2020
US mail - Appellants Matthews, Matthews; email - Attorney for Appellees: Dietrichs, Marsh. [Entered:
01/30/2020 09:48 AM]

El

Briefing Notice issued to Appellees Andrew J. Becker and David Jason Merbaum. Appellee's brief is due on
or before 03/12/2020. Created Awaiting Supplemental Appendix on 03/19/2020 as to Appellees Andrew J.
Becker and David Jason Merbaum. [Entered: 02/11/2020 02:24 PM]

184 pg, 7.71 MB

02/11/2020

2 pg, 16.75 KB

02/12/2020

02/12/2020

❑

NOTICE OF CIP FILING DEFICIENCY to Andrew J. Becker and David Jason Merbaum. You are receiving
this notice because you have not completed the Web-Based Stock Ticker Symbol CIP via the court's public
web-page and have not filed the CIP via the electronic filing system (CM/ECF). Failure to comply with 11th
Cir. Rules 26.1-1 through 26.1-4 may result in dismissal of the case or appeal under 11th Cir. R. 42-1(b),
return of deficient documents without action, or other sanctions on counsel, the party, or both. [Entered:
02/12/2020 02:31 PM]

El

NOTICE OF CIP FILING DEFICIENCY to David Jason Merbaum. You are receiving this notice because you
have not completed the Certificate of Interested Persons (CIP). Failure to comply with 11th Cir. Rules 26.1-1
through 26.1-4 may result in dismissal of the case or appeal under 11th Cir. R. 42-1(b), return of deficient
documents without action, or other sanctions on counsel, the party, or both. [Entered: 02/12/2020 02:34 PM]

-

Certificate of Interested Persons and Corporate Disclosure Statement filed by Party Andrew J. Becker. On
the same day the CIP is served, the party filing it must also complete the court's web-based stock ticker
symbol certificate at the link here http://www.ca11.uscourts.gov/web-based-cip or on the court's website.
See 11th Cir. R. 26.1-2(b). [19-15001] (ECF: Andrew Becker) [Entered: 02/27/2020 02:14 PM]

El

Supplemental Certificate of Interested Persons and Corporate Disclosure Statement filed by Appellants
George Matthews and Nina Matthews. [Entered: 03/02/2020 03:51 PM]

El

"Motion to Disqualify Attorney's Filing Certificate of Interested Persons Form Due to Failure to File an
Appearance of Counsel Form" filed by Appellants George Matthews and Nina Matthews. 19023415-1]
[Entered: 03/02/2020 03:59 PM]

El

RESPONSE to Motion filed by Appellants George Matthews and Nina Matthews with incorporated Motion
for Sanctions [9023415-2] filed by Party Andrew J. Becker. [19-15001]-[Edited 03/24/2020 by JC] (ECF:
Andrew Becker) [Entered: 03/06/2020 11:58 AM]

El

Appellee's Brief filed by Appellee Andrew J. Becker. [19-15001] (ECF: Andrew Becker) [Entered:
03/06/2020 11:58 AM]

1 pg, 14.57 KB

02/27/2020

03/02/2020

0 a4 pg, 78.68 KB

4 pg, 287.25 KB

03/02/2020

15 pg, 1.11 MB

03/06/2020

8 pg, 263.78 KB

03/06/2020

Appellant's brief filed by George Matthews and Nina Matthews. Service date: 01/21/2020 [19-15001]
Attorney for Appellee: Dietrichs - US mail; Attorney for Appellee: Marsh - US mail. [Entered: 01/22/2020
03:52 PM]

28 pg, 2.96 MB

https://ecfcaltuscourts.gov/n/beam/servlet/TransportRoom

4/6

19-15001 Docket

1/24/2021

CI

03/06/2020

275 pg, 9.28 MB

Supplemental Appendix [1 VOLUMES] filed by Appellee Andrew J. Becker. [19-15001] (ECF: Andrew
Becker) [Entered: 03/06/2020 12:00 PM]

03/09/2020

Received paper copies of EBrief filed by Appellees Andrew J. Becker and David Jason Merbaum. [Entered:
03/09/2020 03:26 PM]

03/09/2020

Received paper copies of EAppendix filed by Appellees Andrew J. Becker and David Jason Merbaum. 1
VOLUMES - 2 COPIES [Entered: 03/09/2020 03:26 PM]

03/27/2020

I=1

Reply Brief filed by Appellants George Matthews and Nina Matthews. Service 03/27/2020 US mail Appellees Becker, Merbaum. [Entered: 03/30/2020 01:13 PM]

CI

ORDER: Appellants' "Motion to Disqualify Attorney's Filing Certificate of Interested Persons Form Due to
Failure to File an Appearance of Conunsel [sic] Form" is DENIED. Appellee's "Response to Motion to
Disqualify...," which is also construed as a motion requesting sanctions pursuant to 11th Cir. R. 27-4, is
DENIED. [9027749-2] [9023415-2] (ELB, BCG and RJL) [Entered: 03/30/2020 04:33 PM]

23 pg, 1.27 MB

03/30/2020

2 pg, 75.67 KB

03/30/2020

NOTICE OF CIP FILING DEFICIENCY to Andrew J. Becker. You are receiving this notice because you
have not completed the Web-Based Stock Ticker Symbol Certificate of Interested Persons (CIP) via the
Court's public web-page. Failure to comply with 11th Cir. Rules 26.1-1 through 26.1-4 may result in
sanctions on the party. [Entered: 03/30/2020 04:39 PM]

04/02/2020

Public Communication: The deficiency notice sent to Andrew Becker on March 30, 2020, was sent in error
and can be disregarded. He is not required to file a web-based CIP. [Entered: 04/02/2020 12:25 PM]

04/02/2020

Received paper copies of EAppendix filed by Appellant George Matthews. 1 VOLUMES - 2 COPIES
[Entered: 04/07/2020 08:58 AM]

04/02/2020

o

68 pg, 3.45 MB

El

06/02/2020

18 pg, 85.01 KB

06/02/2020

Appellant's Supplemental Appendix filed [1 VOLUMES - 2 copies] by George Matthews and Nina Matthews.
Service date: 04/02/2020 US mail - Appellants Matthews, Matthews; Appellee Merbaum; email - Appellee
Becker; Attorney for Not Parties: Dietrichs, Marsh. [Entered: 04/07/2020 11:06 AM]
Opinion issued by court as to Appellants George Matthews and Nina Matthews. Decision: Affirmed. Opinion
type: Non-Published. Opinion method: Per Curiam. The opinion is also available through the Court's
Opinions page at this link http://www.call.uscourts.gov/opinions. [Entered: 06/02/2020 10:48 AM]
Judgment entered as to Appellants George Matthews and Nina Matthews. [Entered: 06/02/2020 10:53 AM]

❑
1 pg, 9.11 KB

07/01/2020

CI

Mandate issued as to Appellants George Matthews and Nina Matthews. [Entered: 07/01/2020 02:44 PM]

111

Notice of Writ of Certiorari filed as to Appellant George Matthews. SC# 20-565. [Entered: 11/02/2020 03:58
PM]

2 pg, 580.07 KB

10/26/2020

pg, 52.54 KB

12/07/2020
01/07/2021

0

Checked status of certiorari 20-565 filed as to Appellant George Matthews - Pending. [Entered: 12/07/2020
03:53 PM]
Checked status of certiorari 20-565 filed as to Appellant George Matthews - Pending. [Entered: 01/07/2021
10:01 AM]

https://ecf.ca11.uscourts.gov/n/beam/servletfTransportRoom

5/6

19-15001 Docket

1/24/2021

Clear All

0
0

Documents and Docket Summary
Documents Only
Include Page Numbers
f

Selected Pages: LI 9

Selected Size: !O KB

View Selected

PACER Service Center
Transaction Receipt
01/24/2021 16:32:57
PACER Login:

gm3235nm

Client Code:

Description:

Docket Report (filtered)

Search Criteria:

19-15001

Billable Pages:

2

Cost:

0.20

https://ecf.ca11.uscourts.gov/n/beam/servlet/TransportRoom

6/6

Appendix B
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-15001
GEORGE MATTHEWS, NINA MATTTHEWS Plaintiffs
U.

ANDREW BECKER AND DAVID MERBAUM Appellees

BRIEFING NOTICE TO APPELLEES FOR CASE NO. 19-15001

USCA11 Cas

19-15001 Date Filed: 02/11/202r Page: 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal Luscourts.eov

David J. Smith
Clerk of Court

February 11, 2020
Andrew J. Becker
Merbaum & Becker, P.C.
5755 NORTH PT PKWY STE 284
ALPHARETTA, GA 30022
David Jason Merbaum
Merbaum & Becker, P.C.
5755 NORTH PT PKWY STE 284
ALPHARETTA, GA 30022
Appeal Number: 19-15001-GG
Case Style: George Matthews, et al v. Andrew J. Becker
District Court Docket No: 1 :10-cv-01641-SCJ
This Court requires all counsel to file documents electronically using the Electronic Case
Files ("ECF") system, unless exempted for good cause.
Below please find a briefing notice issued to the correct appellees in this appeal.
The brief of appellant has been filed. Eleventh Circuit Rule 31-1 requires that APPELLEE'S
BRIEF BE SERVED AND FILED ON OR BEFORE March 12, 2020. The supplemental
appendix, if needed, is due no later than 7 days after filing of appellee's brief.
The due date is calculated from the date the Appellees were correctly added to the appeal.
This is the only notice you will receive concerning the due date for filing briefs and appendices.
See Fed.R.App.P. 28, 30, 31, 32, the corresponding circuit rules, General Order 39 and the
Guide to Electronic Filing for further information. Pro se parties who are incarcerated are not
required to file an appendix.
If you have not entered your appearance in this appeal, please note that the clerk may not
process your filings. See llth Cir. R. 46-6. Appearance of Counsel Forms are available on the
court's Web site.
Attorneys must file briefs electronically using the ECF system. Use of ECF does not modify the
requirements of the circuit rules that counsel must also provide seven (7) paper copies of a brief

4Pper-c4;.0 8

USCA11 CaF 19-15001 Date Filed: 02/11/202'

Page: 2 of 2

to the court, nor does it modify the requirements of the circuit rules for the filing of appendices
in a particular case.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Joseph Caruso, GG/caw
Phone #: (404) 335-6177
BR-5RCIV Civ Aple brf due fim trigger dt

Appendix C
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-15001
GEORGE MATTHEWS, NINA MATTTHEWS Plaintiffs
V.

ANDREW J. BECKER AND DAVID JASON MERBAUM
Interested Party - Appellees

MOTION TO DISQUALIFY ATTORNEY'S FILING CERTIFICATE OF
INTERESTED PERSONS FORM DUE TO FAILURE TO FILE AN APPEARANCE
OF COUNSEL FORM

CA11 Cap '9-15001
GouBT OF APpE.
S•
‘3•

RECEIVED
CLERK

Date Filed: 03/02/2021 Page: 1 of 15

44,SN

IN THE
TED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

Appellate Case No. 19-15001
George Matthews et al
Matthews et al v. State Farm Fire and Casualty Company
Plaintiff-Appellant
-vsDavid Merbaum
Andrew Becker
Attorneys At Law
Respondent-Appellee
On Appeal from the United States District Court
For the Northern District of Georgia
Atlanta Division
MOTION TO DISQUALIFY ATTORNEY'S FILING
CERTIFICATE OF INTERESTED PERSONS FORM DUE TO
FAILURE TO FILE AN APPEARANCE OF CONUNSEL FORM
George Matthews, pro se
Nina Matthews, pro se
6038 Katie Emma Drive
Powder Springs, GA 30127
matthews.6038@yahoo.com

USCA11 Cas '9-15001

Date Filed: 03/02/202( Page: 2 of 15

SUPPLEMENTAL CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE STATEMENT
Pursuant to 11th Cir. R. 26.1-1 Appellants George Matthews and Nina
Matthews certify that the following persons and entities have an interest in the
outcome of this appeal:
Andrew J. Becker, Merbaum & Becker, P.C.
Hon. John G. Breakfield, Hap County State Court — Added 3/1/20
Lori Burgess, US District Court Reporter, Northern District of Georgia
Hon Mark H. Cohen, US District Court Judge, Northern District of Georgia —
added 1/21/20
Brittany DeDiego, Attorney," Copeland, Stair, Kingma & Lovell — Added 3/1/20
Mark Dietrichs, Attorney, Swift, Currie, McGhee & Hiers, LLP
FedEx Corporation NYSE: FDX, Publicly Traded Corporation — Added 3/1/20
Hon. Reuben Green, Cobb Superior Court Judge
Hon. Willis B. Hunt, Senior US District Court Judge, Northern District of Georgia
Crystal James Esq, Attorney, Crystal James & Assoc LLC
Hon. Steve C. Jones, US District Court Judge, Northern District of Georgia
Kathleen A. Marsh, Attorney, Quirk & Quirk, LLC
David Jason Merbaum, Attorney, Merbaum & Becker, P.0
Hon. Barbara Ellis-Monro, US Bankruptcy Court Judge, Northern District of
Georgia
Lois D. Phillips, US District Court Reporter, Northern District of Georgia — added
1/21/20

_2

USCA11 Cas 9-15001 Date Filed: 03/02/202C Page: 3 of 15

Mary Ida Townson, Chapter 13 Trustee, Northern District of Georgia — added
1/21/20
State Bar of Georgia — added 3/1/20
State Farm Fire and Casualty Company — added 3/1/20
United States Postmaster General — added 3/1/20

I hereby certify that, to the best of my knowledge, the preceding list is a
complete list of all parties having an interest in the outcome of this case.

By:
George Matthews, pro se

Nina Matthews, pro se

3

USCA11 Case "9-15001

Date Filed: 03/02/202(

Page: 4 of 15

Introduction
COMES NOW Appellants George Matthews and Nina Matthews pro se, and
respectfully moves this court to disqualify the filing of APPELLEES'
CERTIFICATE OF INTERESTED PERSONS AND CORPORATE
DISCLOSURE STATEMENT pursuant to 11th Cir. R. 46-5 due to the Appellees
who are also licensed attorneys failure to file an Entry of Appearance before this
court. Attorneys are now more than 14 days deficient in filing this required
information to the US 11th Circuit Court of Appeals but have filed a pleading into
the case violating the court rule 11th Cir. R. 46-5 which states every attorney must
file an appearance form befoTe this court.

Background of Case
In this case, Appellants are appealing their motion to hold in contempt
former attorneys David Merbaum and Andrew Becker who were given orders by
US District Court Judge Willis B. Hunt on the Matthews v. State Farm case. There
were nine missing orders from the US District Court case docket [Matthews v.
State Farm 1:10-cv-1641-WBH]. The orders given by Judge Willis B. Hunt on
October 25, 2010 are outlined in Exhibit 1. The transcript of the Motions hearing
before Judge Wills B. Hunt on October 25, 2010 contained all orders [Docket
#105]. Of the ten orders outlined in Exhibit 1, only Order #3 was filed into the
case docket [Exhibit 2]. The original presiding Judge Willis B. Hunt was
4

USCA11 Cap

9-15001 Date Filed: 03/02/2021

Page: 5 of 15

transferred off of the Matthews v. State Farm case and replaced with Judge Steve
C. Jones in January 2011. Judge Steve C. Jones granted summary judgment for
State Farm on February 13, 2012 [Docket #94] and the orders outlined in Exhibit 1
were missing from the docket. The official transcript of Judge Willis B. Hunt's
October 25, 2010 hearing containing all orders was withheld from the Trial Court
at the time Summary Judgmrt was rendered for State Farm.
In January 2011 Attorneys withdrew from the Matthews vs. State Farm
lawsuit (Docket #57) but they were subject to court orders entered by Judge Willis
B. Hunt on October 25, 2010 (Exhibit 1, Docket #105). Appellants have filed the
Motion for Contempt based on the attorneys direct violation of Order #9 which
stated if attorneys were relieved from the case they could only collect out-ofpocket costs from the Appellants. Attorney's violated the order by suing for
attorney services, expenses Ind interest. In 2015 Attorneys Andrew Becker and
David Merbaum filed a Late Proof of Claim to US Bankruptcy Court Northern
Division and were granted $19,928.83 of which $614.16 was paid from the
bankruptcy account to Andrew Becker and David Merbaum. On August 2, 2017
attorneys obtained a judgment in Cobb Superior Court for legal services in the
amount of $39,902.66 comp Led of $22,579.08(attorney fees and interest) and
$17,323.58 (expenses and late fees). On October 10, 2017 attorneys filed
garnishment in State Court of Hall County to collect $57,226.20. The claims made
5

USCA11 Cas

9-15001 Date Filed: 03/02/202( Page: 6 of 15

by Attorneys David Merbau0 and Andrew Becker for the almost $20k were heard
before Judge Willis B. Hunt and not granted, however, attorneys violated orders
given and sued to collect the§e amounts. David Merbaum and Andrew Becker
sued Appellants under their former law firm name of Merbaum Law Group. They
have since formed a new law firm Merbaum & Becker, PC.
On July 2, 2019 Appellants filed Motion for Contempt against their former
attorneys David Merbaum (Georgia Bar No. 006700) and Andrew Becker
(Georgia Bar No. 142595) (pocket 111). On July 17, 2019 Attorneys David
Merbaum and Andrew Becker filed a Response in Opposition to Motion (Docket
115). On November 12, 2019 the US District Court denied the Motion for
Contempt. Appellants filed a Notice to Appeal on December 11, 2019.

Argument
Attorneys have filed documents into this 11th Circuit Court of Appeals case
without filing an Entry of Appearance of Counsel Form which is a clear violation
of 11th Cir. R. 46-5. Pursuant to 11th Cir. R. 46-5, every attorney is required to
file an Entry of Appearance form in order to participate in a case before the court
unless they are a court appointed attorney. The 11th Cir. R. 46-5 rule states:
Entry of Appearance. Every attorney, except one appointed by the court for
a specific case, must flip an Appearance of Counsel Form in order to
participate in a case before the court. The form must be filed within 14 days
after the date on the notice from the clerk that the Appearance of Counsel
-6 -

fAk

USCA11 Cas

9-15001 Date Filed: 03/02/202C Page: 7 of 15

Form must be filed. .Vkith a court-appointed attorney, the order of
appointment will be treated as the appearance form.

This case was docketed on December 12, 2019 and a briefing notice was
sent to Appellants and State Farm counsel but erroneously excluded Appellees who
are also Attorneys-At-Law David Merbaum and Andrew Becker of Merbaum and
Becker Law PC. Attorneys David Merbaum and Andrew Becker along with State
Farm attorneys were served with the Notice of Appeal (Doc #117), Certificate of
Interested Persons (Filing 1/8/2020), Appellant's Brief (Filing 1/21/20) and
Appellant's Appendix (Filing 1/28/20) but Attorneys David Merbaum and Andrew
Becker were unresponsive tol the case. Appellants were prompted to contact the
clerks' office when they attorneys did not file into the case. It was then that the
11th Circuit Court of Appeals, clerks' office acknowledged they had made an error
in excluding the Appellees Attorneys David Merbaum and Andrew Becker off of
the original Briefing Notice and that they would issue a correction to the case
docket. On February 11, 2020 Attorneys David Merbaum and Andrew Becker
were sent a Briefing Notice by the 1 1 th Circuit US Court of Appeals clerks' office.
According to the Merbaum and Becker law firm website, both attorneys are
admitted to practice law in the United Stated Court of Appeals for the 11th Circuit
(Exhibit 3, 4). However they have allowed the 14 days to elapse to sign in on the

7

USCA11 Cas

9-15001 Date Filed: 03/02/2020 Page: 8 of 15

case and are still refusing to complete the Entry of Appearance as required by Rule
llth Cir. R. 46-5 although they have begun to file documents into the case.
Not only are Attorneys David Merbaum and Andrew Becker more than 14
days deficient but they have also evaded 11th Cir. R. 46-6(b) which addresses the
penalty for such failure and that is that the clerk may not accept any further filings
(except for a brief) from the attorney until the attorney files an Appearance of
Counsel Form. Attorneys David Merbaum and Andrew Becker have violated this
rule when they circumvented the rules of this court and filed a Certificate of
Interested Persons and Cormate Disclosure Statement bypassing the courts
requirement of submitting an Entrance of Appearance Form to this court.
11th Cir. R. 46-6 (b) Filings from an Attorney Who Has Not Filed an
Appearance of Counsel Form Within 14 Days After Notice is Mailed by the
Clerk. When an attorney fails to file a required Appearance of Counsel Form
within 14 days after notice of that requirement is mailed by the clerk, the
clerk may not accept any further filings (except for a brief) from the attorney
until the attorney files Ian Appearance of Counsel Form. When an attorney
who has not filed an Appearance of Counsel Form tenders a brief for filing,
the clerk will treat thelfailure to file an Appearance of Counsel Form as a
deficiency in the formiof the brief. An Appearance of Counsel Form need
not be accompanied by a motion to file out of time.

Pursuant to llth Cir. R. 46-6 (b) the Clerk of this Court did not have
authority to accept the APPELLEES' CERTIFICATE OF INTERESTED
PERSONS AND CORPORATE DISCLOSURE STATEMENT until they have

USCA11 Cas

9-15001

Date Filed: 03/02/202C Page: 9 of 15

come into compliance with this courts rule of filing the required Appearance of
Counsel Form.

Summary
Appellants hereby respectfully request this court to disqualify the
APPELLEES' CERTIFICATE OF INTERESTED PERSONS AND
CORPORATE DISCLOSURE STATEMENT filing by Attorney David

Merbaum and Andrew Becker and also request that Attorneys David
Merbaum and Andrew Becker are restricted from filing any further
pleadings into this case unless the filings are permitted according to 11 th
Cir. R. 46-6 (b).
Respectfully subfnitted this 2nd day of March 2020.

YYlcuth4,---A
George Matthews
6038 Katie Emma Drive
Powder Springs, GA 30127
(404) 213-8324

ma Matthews
603: Katie Emma Drive
Powder Springs, GA 30127
(678)231-7726

I certify this motion is in compliance with FRAP 27(d)(2)(A).
9

11-

USCA11 Case' 1-15001

Date Filed: 03/02/2020

'age: 10 of 15

Exhibit 1— Orders withhelil out of US District Court (Docket 105)
1
TRANCRIPT OF MOTIONS HEARING BEFORE THE HONORABLE WILLIS B. HUNT, JR.
UNITED STATES JUDGE (Orders Withheld Out of the Court — Doc 105)
I
United States District Court - Northern District of Georgia - Atlanta
Civil Action File No. 1:10-cv-1641-1WBH Division
George Matthews, Nina Matthews vs. State Farm Fire and Casualty
Company
October 25, 2010 10:10 A.M.
Appearances: For the Plaintiffs: DAVID MERBAUM, ANDREW
Lori Burgess, Official Court Report&
,
BECKER, ATTORNEYS AT LAW
(404) 215-1528
ORDER

ORDERS GIVEN
1
ORDER 1 PG. 28 Line 6-8 (Missing
from Docket)

AFTER DISCOVERY THEN IS WHEN YOU GET THE
MOTIONS TO THE COURT THAT WOULD DISPOSE OF THE
CASE, IF SUCH MOTIONS ARE AUTHORIZED.

N,
ORDER 2 PG. 28 Line 8-15 (Missing
from Docket)

IN THIS CASE THEY MAY NOT BE BECAUSE, I MEAN, WE
MAY HAVE SOME ISSUES ABOUT WHETHER CERTAIN
EXPERTS ARE QUALIFIED TO TESTIFY. BUT ASSUMING,
YOU KNOW, THAT DOES NOT GET RESOLVED AGAINST
Y'ALL, THERE IS NO WAY, I DONT THINK, THAT STATE
FARM COULD SAY THERE IS NOT GOING TO BE ANY
FACTUAL ISSUE IN THE CASE AND, THEREFORE, THE
COURT CASE PROBABLY WOULD NOT BE DISPOSED OF BY
SUMMARY JUDGMENT, MEANING THAT ULTIMATELY IT
WOULD GO ON A TRIAL CALENDAR.

ORDER 3 PG. 40 Line 16-18 (FILED
INTO CASE)
ORDER 4 PG. 41 Line 7 (Missing from
Docket)
ORDER 5 PG. 41 Line 8 (Missing from
Docket)
,

I WANT YOU TO EITHER TALK
WITH EACH OTHER RIGHT HERE IN THE COURTROOM
THIS MORNING AND
SEE IF THERE IS ANY WAY YOU CAN RECONCILE THE
DIFFERENCES.
YOU NEED TO AGREE ON CONTINGENCY
SEE IF YOU CAN TAKE DEPOSITIONS

ORDER 6 PG. 41 Line 9 (Missing from
Docket)

AND AT LEAST HAVE MEDIATION AND SEE WHERE YOU
ARE THERE

ORDER 7 PG. 41 Line 11-13 (Missing
from Docket)

THEN WHAT I WANT YOU TO AGREE IS, SO THAT THE
MATTHEWS'S COME BY YOUR OFFICE BEFORE THE END
OF THIS WEEK

10

t4-

USCA11 CasE 1-15001

Date Filed: 03/02/2020

-)age: 11 of 15

ORDER 8 PG. 41 Line 13-14 (Missing
from Docket)

IF AT THE END OF THAT TIME YOU CANNOT GET OUT, LET
US KNOW

ORDER 9 PG. 41 Line 13-18 (Missing
from Docket)

I WILL THEN RELIEVE THE LAWYERS OF THEIR
RESPONSIBILITY ON THE CONDITIONS SET FORTH IN
THEIR LETTER, AND THAT IS THAT THERE BE NO
ADDITIONAL---ASIDE FROM SOME OUT-OF-POCKET COSTS
--THERE WOULD BE NOT ADDITONAL CHARGE TO THE
PLAINTIFFS.

ORDER 10 PG. 41 Line 18-20 (Missing
from Docket)

AND THEN THEY CAN GO AND GET A LAWYER WHO WILL
MAYBE WHO WILL AGREE TO TAKE IT ON A
CONTINGENCY AND MOVE FORWARD

11

(1

USCA11 Case )-15001

Date Filed: 03/02/2020

'age: 12 of 15

Exhibit 2
US District Court Case - Civil Action File No. 1:10-cv-1641-WBH — Court Docket

CMECF Neff Vtgifies •

1°it

1 Ito tum I
mum;
Doif a t kra0110,14 tiiVadrat itiiitit1 Batelidtdy by Giori tativis,M32114tlinis. (Beckeptirgiv)
I0'061!010ileflift*:40p*
21 ritglAppro
*tatOrquiptuqrpg:E0049.**910apprigilpietogaimgof ,,,," I, Fig,420dContbriigliterogatariesby$tate Fara Fire aad Cady CamployNstirk Icagiea)
a fil i d &kid.'
101010 hOon for exiii*
Iiiiiiiiiiii
OMNI

DP* T.4.0074i* 4404040011 Cfgi Y .4 It ElElliiig 101 *fie 14140G3M8164 Oder, AA*
giogOtoiNot oft*
ii El***
&let. Tat NOTICE Of reiiigni68 Shiafs ally iikivist bi Geo* 1061t,.NirOldthiss (Bea**
i
a Fiti d alibi
10431010 4spoase (14614496a)
**Tast4.0.0 00.E1 [24 i*osagigreTeog go* . KMatt* (13eclOgiew)N.Soifiad aa Hi141.2010 0 diete *five text (nt).
a fgeo004,
01004;91rAng
tiatiiimicaitrait4iiiti Pi Willartititattigiblikiiitaititi4 & iiiibitivet, li. by Gm* Mat* 1%12 kittrat (Pate; Adets)Mo&fii co IONV1010 to-Mit:dap*.
to (rtb).
r,,,,o,
..,•.,.....,.
•
. .. ... „
—..

Ti FiTarert: -

--'''''''''Wli.

*tat ORO.444 aa egaio geuia$ at.s004iltaa& . at.Ogrkge00E4ssic.002..v.1010 at *OW ia AILA cortrcom CO Wu Jot** B. gar;It, 44 6.0I10)16
sir4thasyl)avi&* hicr* as Om laal [2046110 fp**
1..' pc.ckg. o Atang:lbe!!!#0 Oisalior, *lading Oscom 0 all 1 ;1dea&tias,
, . . , 009* 401.1),
. is HOPED rebitivap
. ..
ii&iiiiiitirihtrideiiititia6ait gig tiiiitaita*iiii io:(iii;i
.—.. .
. ...
.
.. .
..
„
........_ ...
f gat& Bitrof
1E50310 1 Aillitirit
D.044! re.0.41.0.4Oyfor rioct44 ti**Fillis.144.t, Alaticia li* 614 aa. MOM. 0126DIVIIPto RithdrawUrew l. Becker as Aping), (23] MOTIO9Rigaqiisli*
*asp as AttOty. plastop:c**11 , 4 : i lai , ,,,, , ,, coaasc. at& ;0042 Om* allai* attgapto recgole theirgeserges Cams& is O qui back to the cagiki 00:10, 201q. (44RepOet
,trAi BulessXrit)
tditl&FAii
—
M010 SII..', .. . 6 Diitsicthip
&dealt *lion 4[21] mom foi0i1449itaill.60#00&1*.ftisikeit,irk,p5P,10110N to %Vim Datid Jason Mat as Atte* [26] MOTION to Ilithiawkditsi]Betiels.
At(dOit ItehilUctia&p.t6 B. :1,140— I ' .
.
"
a Filed 4 Eilfid
100 0414191661900.
1)04.1.0 yOkaloofctiop( Room!Of*/ 44411**40Lygal by Cs5900!.sys,?,....ksMaithoysi [251.M0:11qN O V ,,,, Dasitj*Iferbano as 4!tcpey le.0•E pprge1,10;
Yniiiiiiiii tdigileriage140640e:66 "

12

USCA11 Cas( 9-15001

Date Filed: 03/02/202C 'Page: 13 of 15

Motli40:00. Becket Website —Attotiyes David

PRACI
2IttAlttAS ii4ENV§ROt:ni CONTACT

r;etdri
-

AttotAtt:DJMrbaum
._
t
1Diti!

SrPOuat, wIth P degrc'e trt 'mm1:from .t)
moved 16
.
begin S legalpree
.-„

Davi

ns an auSoolte with a Cmail (irmwboe practice focused ott toe represci titian of i..rct companies

e;ti?iijetirritit
S9nJFIc07"?.:tialig‘!itkCPPnfTi!.?FR-enr.r*`10: r ntaas pat applications and paves nt bard
nuiuerousttials and 41Mrettrifiii0filltAlt..ii*tiglit

.."

itiPstvit.OrtivNtet*iiist:1 4)t-ftqt.it'Prc„4t1

:.:•1. .1. 99-:.66;,13ii
a-7.4,cli nged
ast4it.;!6!rot

itt -016
, the

companies in mat ers throupbout the I nited States The Firm
• atejii.,63foirArtoli; real

k.

estate matters Including real estate lilrgttioi busins advice and ORD!, resolution arid conautnar
iliti itin orlii'hfidihe

1 -.Ail

Damidhan'iteitiliSd co'iinsel on ntlinervuaJu1 and bench trials 5nd weU as s11fikrattsiibifia)iifi.-

follcit,ritg courts.:..h11 Slate and Supeno Courts in the date ci Georgia
iiiedeotiiiti`.4tirt of Appeals
..! The Georgia Supreme Court
t..S District Court !ohern Division Georgia

'10
Orcifert
The Georgia Court°
6eitsiS Supreme Court•
Geora.

ia71
tVr 2
-143
:
t tilr'
Gicilit Coen.eXpAe
n1
1.1
,, 1
The thited.stStO,s4reme,cort
-

The tttW'C,rcuitCourtof 'appeals

elhirniatki.."grotO$tipieme Csti
David has bceuliwohcd in several Court of tppIe aaes t bids addrr ised edemas and important

',sfi*e

Cóiithc

IifOrihatión

USCA11 Casf 9-15001

Date Filed: 03/02/202C Page: 14 of 15

Mtfbatifif and Beckei W.dbgito —,Atiorriq Andrew Becker
,--'7::::,*;08-7:393182.itiog;:7.rr:m;;;34,:iaza,44i,valililieliati.AVWM

B

f•;,

Aft
PRACTICEAREAS !NEWSROONV. CONTACT

M EnBXUM1IltCKERs..

1
Attorney Andreyyj; Becker
s*i'dfor
nalhertlirefleeehis achy, pOsition

civO

6i0C,
Aiidre reccwed hi., J I) from tmor Unwerrt School of La strere he asa member o Emory's
octeeniit at" the lliiitelistlt esbepaii inett of In rejior as well is thesoiithth,
PkIiic"txx404:typoApifiOkf1:i44.s...td:10i,a)14geloy

pacrii,idt,of
Spanish
owdievill history.
..

Oat' Adinissyni0
Stifetildeofila
SLitei
h*ethilisti

14

Georgia
rt of Appeal far the sith

USCA11 Casi ')-15001

Date Filed: 03/02/2020 'age: 15 of 15

CERTIFICATE OF SERVICE
p
I hereby certify that I have this day served the foregoing MOTION TO DISQUALIFY
ATTORNEY'S FILING CERTIFICATE OF INTERESTED PERSONS FORM DUE TO
FAILURE TO FILE AN APPEARANCE OF CONUNSEL FORM upon counsel for all
parties, by depositing a copy of sane in the United States mail in an envelope with sufficient
postage thereon addressed as follows:

David Merbaum
Merbaum & Becker
5755 North Point Pkwy
Suite 284
Alpharetta, GA 30022
Andrew Becker
Merbaum & Becker
5755 North Point Pkwy
Suite 284
Alpharetta, GA 30022

Respectfully submitted this 2nd day of March 2020.
l
YNatz:iki
George Mhtthews
6038 Katie Emma Drive
Powder Springs, GA 30127
(40
-8324

1
ina atthews
6038 atie Emma Drive
Powder Springs, GA 30127
(678)231-7726

15-

Appendix D
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-15001
GEORGE MATTHEWS, NINA MATTTHEWS Plaintiffs
V.
ANDREW J. BECKER AND DAVID JASON MERBAUM
Interested Party - Appellees

RESPONSE TO MOTION FILED BY APPELLEES

USCA11 Ca

19-15001 Date Filed: 03/06/20'L.

Page: 1 of 8

DOCKET NO. 19-15001-GG
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

George Matthews and Nina Matthews,
Movants — Appellants,
v.
Andrew J. Becker and David J. Merbaum,
Respondents — Appellees.

Appeal from the United States District Court
for the Northern District of Georgia (Atlanta Division)
Case 1:10-cv-01641 (Hon. Steve C. Jones)

APPELLEES' RESPONSE TO MOTION TO DISQUALIFY ATTORNEY'S
FILING CERTIFICATE OF INTERESTED PERSONS FORM DUE TO
FAILURE TO FILE AN APPEARANCE OF CONUNSELISIC] FORM
David J. Merbaum
Georgia Bar Number: 006700
dmerbaum@mbpclaw.com
Andrew J. Becker
Georgia Bar Number: 142595
abecker@mbpclaw.com
Merbaum & Becker, P.C.
5755 North Point Parkway, Suite 284
Alpharetta, Georgia 30022
P: 678 393 8232
APPELLEES

USCA11 Ca

19-15001 Date Filed: 03/06/20;

Page: 2 of 8

APPELLEES' CERTIFICATE OF INTERESTED PERSONS AND
CORPORATE DISCLOSURE STATEMENT
Pursuant to llth Cir. R. 26.1-1, Appellees Andrew J. Becker and David J.
Merbaum certify that the following persons and entities have an interest in the
outcome of this appeal:
Becker, Andrew, Appellee-Respondent
Jones, Steve, U.S. District Court Judge, Northern District of Georgia
Matthews Consulting LLC, Company owned by Appellant-Movant
Matthews, George, Appellant-Movant
Matthews, Nina, Appellant-Movant
Merbaum & Becker, P.C. f/k/a Merbaum Law Group, P.C., law firm representing
Appellees-Respondents
Merbaum, David, Appellee-Respondent
Appellees certify that Merbaum & Becker, P.C. has no parent corporations
and no publicly held corporations own 10% or more of its stock.
Respectfully Submitted,
/s/ David J. Merbaum
David J. Merbaum
Georgia Bar No. 006700
/s/ Andrew J. Becker
Andrew J. Becker
Georgia Bar No. 142595
Appellees - Respondents
1

USCA11 Ca

19-15001 Date Filed: 03/06/20;

Page: 3 of 8

INTRODUCTION
As argued in the Brief of Appellee, George and Nina Matthews
("Matthewses") have taken frivolous actions in four prior courts: the Superior
Court of Cobb County, the Court of Appeals of Georgia, the Supreme Court of
Georgia, and the United States District Court for the Northern District of Georgia.
This Court is now the fifth. The Matthewses argued in their Motion to Disqualify
Attorney's Filing Certificate of Interested Persons Form Due to Failure to File an
Appearance of Conunsel[sic] Form ("Motion") that this Court should disqualify
the Appellees' Certificate of Interested Persons and Corporate Disclosure
Statement ("CIP") filed by the David J. Merbaum and Andrew J. Becker ("M&B
Attorneys") because the M&B Attorneys did not make an appearance on behalf of
themselves.
ARGUMENT
The Matthewses' argument is based on 11th Cir. R. 46-5 which states:
"[e]very attorney, except one appointed by the court for a specific case, must file
an Appearance of Counsel Form in order to participate in a case before the court.
The form must be filed within 14 days after the date on the notice from the clerk
that the Appearance of Counsel Form must be filed. With a court-appointed
attorney, the order of appointment will be treated as the appearance form."

2

USCA11 Ca: 19-15001 Date Filed: 03/06/202

Page: 4 of 8

FRAP 46 and 11th Cir. R. 46, et seq. deal with attorneys who are appearing
before the Court on behalf of another party. Nowhere in FRAP 46 or 11th Cir. R.
46 does it require parties who happen to be attorneys file a Appearance of Counsel
form. Assume that the pro se party who is an attorney is not admitted to practice
before the Court. Under the Matthewses' argument, the pro se party who happens
to also be an attorney would be required to file an application for admission under
1 lth Cir. R. 46-3 or 46-4 just to participate in the proceeding against the attorney.
Such is not the case from the M&B Attorneys review of FRAP 46 or 11th Cir. R.
46, et seq.
As shown by the M&B Attorneys' CIP and the Brief of Appellees, the M&B
Attorneys are proceeding pro se as the signature lines identify the M&B Attorneys
as Appellees-Respondents! Thus, no Appearance of Counsel form is required
since the M&B Attorneys are not appearing on behalf of another party in a
representative capacity. In fact, the M&B Attorneys office contacted the Clerk's
Office because the Clerk did not issue the M&B Attorneys an EDF ID to complete
the online corporate disclosure statement. The Clerk informed the M&B Attorneys
office that and EDF ID would not be issued if they were proceeding pro se which
they are. It is also noted that the M&B Attorneys have not received a notice from
1 See e.g.

11th Cir. R. 25-4 (stating "[a]ll papers filed, including motions and
briefs, must contain the name, office address, and telephone number of... a party
proceeding pro se, and be signed by... a party proceeding pro se"). The signature
lines of the CIP
3

USCA11 Cas

. 9-15001 Date Filed: 03/06/202

Page: 5 of 8

the Clerk pursuant to 11th Cir. R. 46-6(a)(2) to file an Appearance of Counsel
form.
The M&B Attorneys will file an Appearance of Counsel form if the Court or
Clerk's office instructs them to do so. However, it does not appear from the rules
or conversation with the Clerk's office that a pro se party who happens to be an
attorney is required to file the Appearance of Counsel form.
CONCLUSION
For the foregoing reasons, the M&B Attorneys requests that this Court deny
the Motion. Should the Court agree, the M&B Attorneys request sanctions be
imposed against the Matthewses pursuant to 11th Cir. R. 27-4 for filing a frivolous
motion.
This 6th day of March, 2020.
Respectfully Submitted,

/s/ David J. Merbaum
David J. Merbaum
Georgia Bar No. 006700
/s/ Andrew J. Becker
Andrew J. Becker
Georgia Bar No. 142595
Appellees — Respondents
MERBAUM & BECKER, P.C.
5755 North Point Pkwy.
Suite 284
Alpharetta, Georgia 30022
P: 678-393-8232
4

-0)

USCA11 Ca 19-15001 Date Filed: 03/06/202

F: 678-393-0410
dmerbaum@mbpclaw.com
abecker@mbpclaw.com

5

Page: 6 of 8

USCA11 Ca!' 19-15001

Date Filed: 03/06/202

Page: 7 of 8

CERTIFICATE OF COMPLIANCE
The undersigned certifies that this document complies with the word limit of
FRAP 27(d)(2)(A) because this document contains 1,105 words.
The undersigned further certifies that this document complies with the
typeface requirements of FRAP 32(a)(5) and the type-style requirements of FRAP
32(a)(6).
This 6th day of March, 2020.
Respectfully Submitted,

/s/ David J. Merbaum
David J. Merbaum
Georgia Bar No. 006700
/s/ Andrew J. Becker
Andrew J. Becker
Georgia Bar No. 142595
Appellees — Respondents
MERBAUM & BECKER, P.C.
5755 North Point Pkwy.
Suite 284
Alpharetta, Georgia 30022
P: 678-393-8232
F: 678-393-0410
dmerbaum@mbpclaw.com
abecker@mbpclaw. corn

I

v\

USCA11 Ca: 19-15001 Date Filed: 03/06/202

Page: 8 of 8

CERTIFICATE OF SERVICE
I hereby certify that I have served the foregoing Appellees' Response to
Motion to Disqualify Attorney's Filing Certificate of Interested Persons Form
Due to Failure to File an Appearance of Conunsel[sic] Form upon the opposing
party by placing a copy of the same in the U.S. First Class Mail, with adequate
postage affixed thereto and properly addressed to:
George and Nina Matthews
6038 Katie Emma Drive
Powder Springs, Georgia 30127
This 6th day of March, 2020.
Respectfully Submitted,

/s/ David J. Merbaum
David J. Merbaum
Georgia Bar No. 006700
/s/ Andrew J. Becker
Andrew J. Becker
Georgia Bar No. 142595
Appellees — Respondents
MERBAUM & BECKER, P.C.
5755 North Point Pkwy.
Suite 284
Alpharetta, Georgia 30022
P: 678-393-8232
F: 678-393-0410
dmerbaum@mbpclaw.com
abecker@mbpclaw. corn

II

Appendix E
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-15001
GEORGE MATTHEWS, NINA MATTTHEWS Plaintiffs
V.
STATE FARM FIRE & CASUALTY COMPANY Defendant
ANDREW J. BECKER AND DAVID JASON MERBAUM
Interested Party - Appellees

ORDER

Before: BRANCH, GRANT and LUCK, Circuit Judges

USCA11 Ca: 19-15001

Date Filed: 03/30/202

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-15001-GG

GEORGE MATTHEWS,
NINA MATTHEWS,
Plaintiffs - Appellants,
versus
STATE FARM FIRE & CASUALTY COMPANY,
Defendant,
ANDREW J. BECKER
DAVID JASON MERBAUM,
Interested Party - Appellees.

On Appeal from the United States District Court for the
Northern District of Georgia

BEFORE: BRANCH, GRANT and LUCK, Circuit Judges.
BY THE COURT:
Appellants' "Motion to Disqualify Attorney's Filing Certificate of Interested Persons Form
Due to Failure to File an Appearance of Conunsel [sic] Form" is DENIED.
Appellees' "Response to Motion to Disqualify...," which is also construed as a motion
requesting sanctions pursuant to llth Cir. R. 27-4, is DENIED.

P--ep-eAdv.

Appendix F
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

No. 1:10-CV-1641
GEORGE MATTHEWS, NINA MATTTHEWS Plaintiffs
v.
STATE FARM FIRE & CASUALTY COMPANY Defendant
Andrew J. Becker
David Jason Merbaum Respondents
Filed: July 2, 2019

MOTION FOR CONTEMPT AGAINST ATTORNEYS DAVID MERBAUM AND
ANDREW BECKER WITH BRIEF IN SUPPORT
Before: Judge Steve C. Jones

Appendix G
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

No. 11-63910
MERBAUM LAW GROUP, Movant
V.
GEORGIA E. MATTHEWS III, Respondent

Filed February 21, 2017

CHAPTER 13 STANDING TRUSTEE'S FINAL REPORT AND ACCOUNT
Before: Judge Barbara Ellis-Monro

Case 11-63910-bem Doc 89 Filed 02/21/17 Entered 0201/17 14:08:11 Desc
Page 1 of 5

UNITED STATES BANKRUPTCY COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
In re:

Case No. A11-63910-BEM
GEORGE E MATTHEWS, HE

Debtor(s)

CHAPTER 13 STANDING TRUSTEE'S FINAL REPORT AND ACCOUNT
Mary Ida Townson, chapter 13 trustee, submits the following Final Report and Account
of the administration of the estate pursuant to 11 U.S.C. § 1302(b)(1). The trustee declares as
follows:
The case was filed on 05/05/2011.
The plan was confirmed on 08/09/2011.
The plan was modified by order after confirmation pursuant to 11 U.S.C. § 1329 on
NA.
The trustee filed action to remedy default by the debtor in performance under the plan
on 08/30/2013.
The case was completed on 07/27/2016.
Number of months from filing to last payment: 63.
Number of months case was pending: 70.
Total value of assets abandoned by court order: NA .
Total value of assets exempted: $12,500.00.
Amount of unsecured claims discharged without payment: $369,918.20.
All checks distributed by the trustee relating to this case have cleared the bank.

UST Form 101-13-FR-S (9/1/2009)

(42019v44,344-,

Total paid by or on behalf of the debtor
Less amount refunded to debtor

$53,032.26
$318.00

NET RECEIPTS:

$52,714.26

Expenses of Administration:
Attorney's Fees Paid Through the Plan
Court Costs
Trustee Expenses & Compensation
Other
TOTAL EXPENSES OF ADMINISTRATION:
Attorney fees paid and disclosed by debtor:

$2,942.19
$0.00
$2,533.53
$0.00
$5,475.72
$600.00

Scheduled Creditors:
Creditor
Name
ALEXANDER FARMS COMMUNITY A
AMERICAN EXPRESS BANK, FSB
AMERICAN EXPRESS CENTURION B1
AMERICA'S SERVICING COJHSBC 131c
BUREAUS INVESTMENT GROUP POR
C1GPF I CORP
CITIBANK NA
CITB3ANK, NA
DISCOVER BANK
INTERNAL REVENUE SERVICE
INTERNAL REVENUE SERVICE
MERBAUM LAW GROUP, P.C.
MIDLAND FUNDING, LLC
PRA RECEIVABLES MANAGEMENT, _
PRA RECEIVABLES MANAGEMENT, :
PRA RECEIVABLES MANAGEMENT, :
Gemb/Ge Money Bank Low
Hhgreg/Gemb
Homcbancmt
Homebancmt
Citi
Delta Outsolur.e Group
Amex
Georgia Department of Revenue
Americasse
Suntrust Mortgage/Cc 5
Tidewater Credit Semi
Wells Fargo Hm Mortgag
Macys/Fdsb
Macys/Fdsb
Novastar Financial

Class
Unsecured
Unsecured
Unsecured
Secured
Unsecured
Unsecured
Unsecured
Unsecured
Unsecured
Unsecured
Priority
Unsecured
Unsecured
Unsecured
Unsecured
Unsecured
Unsecured
Unsecured
Unsecured
Unsecured
Unsecured
Unsecured
Unsecured
Priority
Unsecured
Unsecured
Unsecured
Unsecured
Unsecured
Unsecured
Unsecured

UST Form 101-13-FR-S (9/1/2009)

Claim
Scheduled
550.00
1,366.00
9,263.00
11,900.00
900.00
9,681.00
46,015.00
14,404.12
2,957.00
NA
8,681.52
NA
0.00
2,640.00
1,921.00
2,443.00
0.00
0.00
0.00
0.00
1.598.00
895.81
0.00
1_00
0.00
191,920.00
0.00
0.00
0.00
0.00
0.00

Claim
Asserted
550.00
1,366.68
9,263.58
15,396.74
919.88
9,680.68
45,901.77
14,775.54
2,957.74
2,151.00
6,584.84
19,928.83
1,728.33
2,640.00
1,921.33
2,443.52
NA
NA
NA
NA
NA
NA
NA
NA
NA
NA
NA
NA
NA
NA
NA

Claim
Allowed
550.00
1,366.68
9,263.58
15,396.74
919.88
9,680.68
45,901.77
14,775.54
2,957.74
2,151.00
6,584.84
19,928.83
1,72833
2,640.00
1,921.33
2,443.52
NA
NA
NA
NA
NA
NA
NA
NA
NA
NA
NA
NA
NA
NA
NA

Principal
Paid
16.95
42.13
285.49
15,396.74
28.34
298.34
1,414.58
455.35
91.16
66.29
6,584.84
614.16
5127
81.35
59.20
75.30
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00

0.00

Int.
Paid
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00
0.00

0.00

Appendix H
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

No. 11-63910
MERBAUM LAW GROUP, Movant
V.

GEORGIA E. MATTHEWS III, Respondent

Filed April 19. 2015

MOTION TO ALLOW LATE PROOF OF CLAIM AND PROOF OF CLAIM

Before: Judge Barbara Ellis-Monro

Case 11-63910-bem Doc 57 Filed 08/19/15 Entered 08/19/15 10:30:13 Desc Main
Document Page 1 of 6

IN THE UNITED STATES BANKRUPTCY COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
IN RE:

BANKRUPTCY CASE
NO. 11-63910-BEM

GEORGE E. MATTHEWS III
CHAPTER 13
Debtor
BARBARA ELLIS-MONRO
MERBAUM LAW GROUP, P.C.
Movant,
vs.

CONTESTED MATTER

GEORGE E. MATTHEWS III
Respondent.

NOTICE OF HEARING
PLEASE TAKE NOTICE that the Merbaum Law Group, P.C. has filed a Motion to
Allow late Filed Proof of Claim and related papers with the Court seeking an order holding
that the Merbaum Law Group, P.C.'s proof of claim was timely filed.
PLEASE TAKE FURTHER NOTICE that the Court will hold a hearing on the
Merbaum Law Group, P.C.'s Motion to Allow late Filed Proof of Claim in Courtroom 1402,
United States Courthouse, 75 Spring Street, S.W., Atlanta, Georgia at 11:00 A.M. on
September 15, 2015.
Your rights may be affected by the court's ruling on these pleadings. You should read
these pleadings carefully and discuss them with your attorney, if you have one in this bankruptcy
case. (If you do not have an attorney, you may wish to consult one.) If you do not want the court
to grant the relief sought in these pleadings or if you want the court to consider your views, then
you and/or your attorney must attend the hearing. You may also file a written response to the
pleading with the Clerk at the address stated below, but you are not required to do so. If you file
a written response, you must attach a certificate stating when, how and on whom (including
addresses) you served the response. Mail or deliver your response so that it is received by the
Clerk at least two business days before the hearing. The address of the Clerk's Office is: Clerk,
U. S. Bankruptcy Court, Suite 1340, 75 Spring Street, Atlanta Georgia 30303. You must also
mail a copy of your response to the undersigned at the address stated below.
1

Case 11-63910-bem Doc 57 Filed 08/1
9/15 Entered 08/19/15 10:30:13 Desc Main
Document Page 2 of 6

If a hearing on the motion for relief from the automatic stay cannot be held within thirty
(30) days, Movant waives the requirement for holding a preliminary hearing within thirty days of
filing the motion and agrees to a hearing on the earliest possible date. If a final decision cannot
be rendered by the Court within sixty (60) days of the date of the request, Movant waives the
requirement that a final decision be issued within that period. Movant consents to the automatic
stay remaining in effect until the Court orders otherwise.
This 19th day of August, 2015.
Respectfully submitted,

/s/ David J. Merbaum
David J. Merbaum
Georgia Bar Number: 006700
dmerbaum@bellsouth.net
Andrew J. Becker
Georgia Bar Number: 142595
Merbaum Law Group, P.C.
5755 North Point Pkwy., Suite 284
Alpharetta, Georgia 30022
(678) 393-8232 (phone)
(678) 467-1920 (facsimile)

2

Case 11-63910-bem Doc 57 Filed 08/19/15 Entered 08/19/15 10:30:13 Desc Main
Document Page 3 of 6

CERTIFICATE OF SERVICE

I, David J. Merbaum, Esq. certify that I am over the age of 18 and that on August 19,
2015, I served a copy of the foregoing Motion to Allow late Filed Proof of Claim by first class
U. S. Mail, with adequate postage prepaid on the following persons or entities at the addresses
stated:
Mary Ida Townson - Chapter 13 Trustee
191 Peachtree Street, NE, Suite 2200
Atlanta, Georgia 30303
(ALSO BY CM/ECF)
George E Matthews, III
6038 Katie Emma Drive
Powder Springs, GA 30127
Anthony B. Sandberg, Esq.
International Tower - Suite 705
229 Peachtree Street, NE
Atlanta, GA 30303
Abbey M. Ulsh, Esq.
Barrett Daffin Frappier Levine & Block
15000 Surveyor Blvd., Suite 100
Addison, TX 75001
(ALSO BY CM/ECF)
Office of the United States Trustee
362 Richard Russell Building
75 Spring Street, SW
Atlanta, GA 30303
(ALSO BY CM/ECF)
This 19th day of April, 2015.
Respectfully submitted,
/s/ David J. Merbaum
David J. Merbaum
Georgia Bar Number: 006700
dmerbaum@bellsouth.net
Andrew J. Becker
Georgia Bar Number: 142595

Merbaum Law Group, P.C.
5755 North Point Pkwy., Suite 284
Alpharetta, Georgia 30022
(678) 393-8232 (phone)
(678) 467-1920 (facsimile)
3

Case 11-63910-bem Doc 57 Filed 08/19/15 Entered 08/19/15 10:30:13 Desc Main
Document Page 4 of 6

IN THE UNITED STATES BANKRUPTCY COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
IN RE:

BANKRUPTCY CASE
NO. 11-63910-BEM

GEORGE E. MATTHEWS III
CHAPTER 13
Debtor
BARBARA ELLIS-MONRO
MERBAUM LAW GROUP, P.C.
'Movant,
vs.

CONTESTED MATTER

GEORGE E. MATTHEWS III
Respondent.

MOTION TO ALLOW LATE FILED PROOF OF CLAIM
COMES NOW the above identified movant, Merbaum Law Group, P.C. ("Movant"),
by and through its undersigned counsel, and hereby moves the Court as follows:
JURISDICTION AND VENUE
This Court has jurisdiction over this contested matter pursuant to 28 U.S.C. §§ 1334 and
157. This matter is a core proceeding pursuant to 28 U.S.C. § 157(b). Venue is proper pursuant
to 28 U.S.C. §§ 1408 and 1409.
FACTUAL BACKGROUND
George E. Matthews, III ("Debtor") filed a petition under Chapter 13 of the Bankruptcy
Code on May 5, 2011 (the "Bankruptcy Case"). Pursuant to 1301(a), the automatic stay extends
to any co-debtor who is liable on any consumer debt to which Debtor is also liable. Movant is a

4

Case 11-63910-bem Doc 57 Filed 08/19/15 Entered 08/19/15 10:30:13 Desc Main
Document Page 5 of 6

law firm hired by Debtor and his wife, Nina Matthews ("the "Co-Debtor") in March 2010.
Movant provided legal services to Debtor and Co-Debtor on an insurance matter involving State
Farm from 2010 through 2011. At the time Debtor filed for bankruptcy, he was indebted to
Movant for services provided in the principal amount of $19,070.65 along with interest of
$858.18.
Neither Debtor nor Co-Debtor ever notified Movant of Debtor's bankruptcy filing or
listed Movant as a creditor. On May 5, 2011 this Court set a deadline of September 8, 2011 for
all non-governmental creditors to file a proof of claim (the "Bar Date"). Movant was not listed
in Debtor's initial schedules or in Debtor's mailing matrix of creditors and never received notice
of the Bar Date from the Court. Movant only became aware of the Bankruptcy Case in June of
this year, after Movant filed suit against Debtor and Co-Debtor, which was several years after
expiration of the Bar Date.
Movant has filed its proof of claim concurrently with this filing, a copy of which is
attached as Exhibit "1". Good cause exists to deem Movant's late proof of claim as timely filed.
ARGUMENT AND CITATION TO AUTHORITY
1. CONSTITUTIONAL DUE PROCESS ALLOWS MOVANT'S CLAIM:
Constitutional due process requires that when a creditor did not have adequate notice of a
bankruptcy, the creditor should be allowed to file a tardy claim. Goodman v. IRS (In re Adams),
502 B.R. 645, 648-649 (Bankr. N.D. Ga. 2013). Here, Movant did not receive notice of the Bar
Date, was not given notice of the underlying bankruptcy case, and was not and has not been
listed as a creditor under the Debtor's mailing matrix. Therefore, due to this lack of adequate
notice, this Court should deem Movant's claim as timely filed.

5

Case 11-63910-bem Doc 57 Filed 08/19/15 Entered 08/19/15 10:30:13 Desc Main
Document Page 6 of 6

WHEREFORE, MOVANT PRAYS AS FOLLOWS:

An Order holding that its late filed proof of claim is considered timely filed;
Such other and further relief as is just and proper.

This 19th day of August, 2015.
Respectfully submitted,

/s/ David J. Merbaum
David J. Merbaum
Georgia Bar Number: 006700
dmerbaum@bellsouth.net
Andrew J. Becker
Georgia Bar Number: 142595
Merbaum Law Group, P.C.
5755 North Point Pkwy., Suite 284
Alpharetta, Georgia 30022
(678) 393-8232 (phone)
(678) 467-1920 (facsimile)

6

Case 11-63910-bem Doc 57-1 Filed 08/19/15 Entered 08/19/15 10:30:13 Desc
;hibit Proof of Claim Page 1 of 5
B10 (Official Form 10 04/13
Northern District of Georgia

UNITED STATES BANKRUPTCY COURT

PROOF OF CLAIM

Case Number:

Name of Debtor:
GEORGE E. MATTHEWS Ill

11-63910-BEM

NOTE: Do not use this form to make a claim for an administrative expense that arises after the bankruptcy filing. You
may file a request for payment of an administrative expense according to 11 U.S.C. § 503.
Name of Creditor (the person or other entity to whom the debtor owes money or property):

Merbaum Law Group, P.C.

COURT USE ONLY
0 Check this box if this claim amends a
previously filed claim.

Name and address where notices should be sent:

Merbaum Law Group, P.C.
5755 North Point Parkway, Suite 284
Alpharetta, Georgia 30022
Telephone number: (678) 393-8232

Court Claim Number:
(If known)

email: abecker@merbaumlaw.com

Filed on:

Name and address where payment should be sent (if different from above):

II Check this box if you are aware that
anyone else has filed a proof of claim
relating to this claim. Attach copy of
statement giving particulars.

email:

Telephone number:

19,928.83

$

Amount of Claim as of Date Case Filed:
If all or part of the claim is secured, complete item 4.

If all or part of the claim is entitled to priority, complete item 5.
iCheck this box if the claim includes interest or other charges in addition to the principal amount of the claim. Attach a statement that itemizes interest or charges.
Basis for Claim: Services Provided
(See instruction #2)
Last four digits of any number
by which creditor identifies debtor:

3a. Debtor may have scheduled account as:

3b. Uniform Claim Identifier (optional):

(See instruction #3a)

(See instruction #3b)
Amount of arrearage and other charges, as of the time case was filed,
included in secured claim, if any:

Secured Claim (See instruction #4)
Check the appropriate box if the claim is secured by a lien on property or a right of
setoff, attach required redacted documents, and provide the requested information.
Nature of property or right of setoff: 0 Real Estate
Describe:

0 Motor Vehicle

Value of Property: $
Annual Interest Rate
(when case was filed) •

% OFixed or °Variable

0 Other

$
Basis for perfection:
Amount of Secured Claim:

$

Amount Unsecured:

$

Amount of Claim Entitled to Priority under 11 U.S.0 § 507 (a). If any part of the claim falls into one of the following categories, check the box specifying
the priority and state the amount.
0 Domestic support obligations under 11
U.S.C. § 507 (a)(1XA) or (a)(1)(B).

0 Up to $2,775* of deposits toward
purchase, lease, or rental of property or
services for personal, family, or household
use — 11 U.S.C. § 507 (aX7).

0 Wages, salaries, or commissions (up to $12,475*)
earned within 180 days before the case was filed or the
debtor's business ceased, whichever is earlier —
11 U.S.C. § 507 (a)(4).

0 Contributions to an
employee benefit plan —
11 U.S.C. § 507 (aX5).

0 Taxes or penalties owed to governmental units —
11 U.S.C. § 507 (aX8).

0 Other — Specify
applicable paragraph of
11 U.S.C. § 507 (a)(__).

Amount entitled to priority:
$

*Amounts are subject to adjustment on 4/01/16 and every 3 years thereafter with respect to cases commenced on or after the date of adjustment.
Credits. The amount of all payments on this claim has been credited for the purpose of making this proof of claim. (See instruction #6)

EXHIBIT
.• •

Case 11-63910-bem Doc 57-1 Filed 08/19/15 Entered 08/19/15 10:30:13 Desc
:hibit Proof of Claim Page 2 of 5'
B10 (Official Form 10) (04/13)
7. Documents: Attached are redacted copies of any documents that support the claim, such as promissory notes, purchase orders, invoices, itemized statements of
running accounts, contracts, judgments, mortgages, security agreements, or, in the case of a claim based on an open-end or revolving consumer credit agreement, a
statement providing the information required by FRBP 3001(cX3)(A). If the claim is secured, box 4 has been completed, and redacted copies of documents providing
evidence of perfection of a security interest are attached. If the claim is secured by the debtor's principal residence, the Mortgage Proof of Claim Attachment is being
filed with this claim. (See instruction #7, and the definition of "reducted".)
DO NOT SEND ORIGINAL DOCUMENTS. ATTACHED DOCUMENTS MAY BE DESTROYED AFTER SCANNING.
If the documents are not available, please explain:
8. Signature: (See instruction #8)
Check the appropriate box.
CI I am the creditor.

6(1 am the creditor's authorized agent.

O l am the trustee, or the debtor,
or their authorized agent.
(See Bankruptcy Rule 3004.)

I declare under penalty of perjury that the information provided in this claim is true an
Print Name: David J. Merbaum, Esq.
Attorney for Creditor
Title:
Company:
Merbaum Law Grout). P.C.
Address and telephone number (if different from notice address above):

0 I am a guarantor, surety, indorser, or other codebtor.
(See Bankruptcy Rule 3005.)

best of my knowledge, information, and reasonable belief.

..
08/19/2015
(Date)

Telephone number:
email:
Penalty for presenting fraudulent claim: Fine of up to $500,000 or imprisonment for up to 5 years, or both. 18 U.S.C. §§ 152 and 3571.
INSTRUCTIONS FOR PROOF OF CLAIM FORM
The instructions and definitions below are general explanations of the law. In certain circumstances, such as bankruptcy cases not filed voluntarily by the debtor,
exceptions to these general rules may apply.
Items to be completed in Proof of Claim form
claim is entirely unsecured. (See Definitions.) If the claim is secured, check the
Court, Name of Debtor, and Case Number:
box for the nature and value of property that secures the claim, attach copies of lien
Fill in the federal judicial district in which the bankruptcy case was filed (for
documentation, and state, as of the date of the bankruptcy filing, the annual interest
example, Central District of California), the debtor's full name, and the case
rate (and whether it is fixed or variable), and the amount past due on the claim.
number. If the creditor received a notice of the case from the bankruptcy court,
all of this information is at the top of the notice.
Amount of Claim Entitled to Priority Under 11 U.S.0 § 507 (a).
If any portion of the claim falls into any category shown, check the appropriate
Creditor's Name and Address:
box(es) and state the amount entitled to priority. (See Definitions.) A claim may
Fill in the name of the person or entity asserting a claim and the name and
be partly priority and partly non-priority. For example, in some of the categories,
address of the person who should receive notices issued during the bankruptcy
the law limits the amount entitled to priority.
case. A separate space is provided for the payment address if it differs from the
notice address. The creditor has a continuing obligation to keep the court
Credits:
informed of its current address. See Federal Rule of Bankruptcy Procedure
An authorized signature on this proof of claim serves as an acknowledgment that
(FRBP) 2002(g).
when calculating the amount of the claim, the creditor gave the debtor credit for
any payments received toward the debt.
1. Amount of Claim as of Date Case Filed:
State the total amount owed to the creditor on the date of the bankruptcy filing.
Documents:
Follow the instructions concerning whether to complete items 4 and 5. Check
Attach redacted copies of any documents that show the debt exists and a lien
the box if interest or other charges are included in the claim.
secures the debt. You must also attach copies of documents that evidence perfection
of any security interest and documents required by FRBP 3001(c) for claims based
2. Basis for Claim:
on an open-end or revolving consumer credit agreement or secured by a security
State the type of debt or how it was incurred. Examples include goods sold,
interest in the debtor's principal residence. You may also attach a summary in
money loaned, services performed, personal injury/wrongful death, car loan,
addition to the documents themselves. FRBP 3001(c) and (d). If the claim is based
mortgage note, and credit card. If the claim is based on delivering health care
on delivering health care goods or services, limit disclosing confidential health care
goods or services, limit the disclosure of the goods or services so as to avoid
embarrassment or the disclosure of confidential health care information. You
information. Do not send original documents, as attachments may be destroyed
after scanning.
may be required to provide additional disclosure if an interested party objects to
the claim.
Date and Signature:
The individual completing this proof of claim must sign and date it. FRBP 9011.
3. Last Four Digits of Any Number by Which Creditor Identifies Debtor:
State only the last four digits of the debtor's account or other number used by the If the claim is filed electronically, FRBP 5005(aX2) authorizes courts to establish
local rules specifying what constitutes a signature. If you sign this form, you
creditor to identify the debtor.
declare under penalty of perjury that the information provided is true and correct to
the best of your knowledge, information, and reasonable belief. Your signature is
Debtor May Have Scheduled Account As:
also a certification that the claim meets the requirements of FRBP 9011(b).
Report a change in the creditor's name, a transferred claim, or any other
Whether the claim is filed electronically or in person, if your name is on the
information that clarifies a difference between this proof of claim and the claim
signature line, you are responsible for the declaration. Print the name and title, if
as scheduled by the debtor.
any, of the creditor or other person authorized to file this claim. State the filer's
address and telephone number if it differs from the address given on the top of the
Uniform ClaiM Identifier
form for purposes of receiving notices. If the claim is filed by an authorized agent,
If you use a uniform claim identifier, you may report it here. A uniform claim
provide both the name of the individual filing the claim and the name of the agent.
identifier is an optional 24-character identifier that certain large creditors use to
If the authorized agent is a servicer, identify the corporate servicer as the company.
facilitate electronic payment in chapter 13 cases.
Criminal penalties apply for making a false statement on a proof of claim.
4. Secured Claim:
Check whether the claim is fully or partially secured. Skip this section if the

Case 11-63910-bem Doc 57-1 Filed 08/19/15 Entered 08/19/15 10:30:13 Desc
chibit Proof of Claim Page 3 of
B10 (Official Form 10) (04/13)

3
DEFINITIONS

Debtor
A debtor is the person, corporation, or other entity
that has filed a bankruptcy case.
Creditor
A creditor is a person, corporation, or other entity to
whom debtor owes a debt that was incurred before
the date of the bankruptcy filing. See 11 U.S.C.
§I01 (10).
Claim
A claim is the creditor's right to receive payment for
a debt owed by the debtor on the date of the
bankruptcy filing. See 11 U.S.C. §101 (5). A claim
may be secured or unsecured.
Proof of Claim
A proof of claim is a form used by the creditor to
indicate the amount of the debt owed by the debtor
on the date of the bankruptcy filing. The creditor •
must file the form with the clerk of the same
bankruptcy court in which the bankruptcy case was
filed.
Secured Claim Under 11 U.S.C. § 506 (a)
A secured claim is one backed by a lien on property
of the debtor. The claim is secured so long as the
creditor has the right to be paid from the property
prior to other creditors. The amount of the secured
claim cannot exceed the value of the property. Any
amount owed to the creditor in excess of the value of
the property is an unsecured claim. Examples of
liens on property include a mortgage on real estate or
a security interest in a car. A lien may be voluntarily
granted by a debtor or may be obtained through a
court proceeding. In some states, a court judgment is
a lien.

A claim also may be secured if the creditor owes the
debtor money (has a right to setoff).
Unsecured Claim
An unsecured claim is one that does not meet the
requirements of a secured claim. A claim may be
partly unsecured if the amount of the claim exceeds
the value of the property on which the creditor has a
lien.
Claim Entitled to Priority Under 11 U.S.C. § 507
(a)
Priority claims are certain categories of unsecured
claims that are paid from the available money or
property in a bankruptcy case before other unsecured
claims.
Redacted
A document has been redacted when the person filing
it has masked, edited out, or otherwise deleted,
certain information. A creditor must show only the
last four digits of any social-security, individual's
tax-identification, or financial-account number, only
the initials of a minor's name, and only the year of
any person's date of birth. If the claim is based on the
delivery of health care goods or services, limit the
disclosure of the goods or services so as to avoid
embarrassment or the disclosure of confidential
health care information.
Evidence of Perfection
Evidence of perfection may include a mortgage, lien,
certificate of title, financing statement, or other
document showing that the lien has been filed or
recorded.

INFORMATION
Acknowledgment of Filing of Claim
To receive acknowledgment of your filing, you may
either enclose a stamped self-addressed envelope and
a copy of this proof of claim or you may access the
court's PACER system
(www.naeer, psc.uscourts.gov) for a small fee to view
your filed proof of claim.
Offers to Purchase a Claim
Certain entities are in the business of purchasing
claims for an amount less than the face value of the
claims. One or more of these entities may contact the
creditor and offer to purchase the claim. Some of the
written communications from these entities may
easily be confused with official court documentation
or communications from the debtor. These entities
do not represent the bankruptcy court or the debtor.
The creditor has no obligation to sell its claim.
However, if the creditor decides to sell its claim, any
transfer of such claim is subject to FRBP 3001(e),
any applicable provisions of the Bankruptcy Code
(11 U.S.C. § 101 et seq.), and any applicable orders
of the bankruptcy court.

